U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

February 1, 2021

The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Doe v. United States
S. Ct. No. 20-559

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 16,
2020. The government’s response is now due, after one extension, on February 5, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including March 8, 2021 within which to file the government’s response.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government’s response have been heavily engaged with the press of other
matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General

cc:

See Attached Service List

20-0559
DOE,
JANEJAVASCRIPT:TRACK('TRACKING.BASE.UPDA
TE.REQUEST.DO?TRACKINGID=794764&DATAOBJ
ECTKEY=OBJECT.CASE')
USA

MELANIE L. BOSTWICK
ORRICK, HERRINGTON & SUTCLIFFE LLP
COLUMBIA CENTER
1152 15TH STREET, NW
WASHINGTON, DC 20005-1706
202-339-8483
MBOSTWICK@ORRICK.COM
MAYA M. ECKSTEIN
HUNTON ANDREWS KURTH LLP
RIVERFRONT PLAZA, EAST TOWER
951 EAST BYRD STREET
RICHMOND, VA 23219
804-788-8788
MECKSTEIN@HUNTONAK.COM
BRIANNE J. GOROD
CONSTITUTIONAL ACCOUNTABILITY
CENTER
1200 18TH ST., NW
SUITE 501
WASHINGTON, DC 20036
202-296-6889
BRIANNE@THEUSCONSTITUTION.ORG

BRIAN R. MATSUI
MORRISON & FOERSTER LLP
2000 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20006
202-887-8784
BMATSUI@MOFO.COM
MICHAEL J. WISHNIE
JEROME N. FRANK LEGAL SERVICES
P.O. BOX 209090
NEW HAVEN, CT 06520-9090
203-436-4780
MICHAEL.WISHNIE@YALE.EDU

